           Office Of Inspector General




December 30, 2003

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT:         Audit Report – Military Mail Issues During Operation Iraqi Freedom
                 (Report Number NO-AR-04-003)

This report presents the results of our audit of Military Mail Issues During Operation
Iraqi Freedom (Project Number 03YN010AC000). We initiated this report in response to
an allegation of delay in military mail during the recent military operations in the Persian
Gulf region.

The audit revealed the Postal Service did not delay military mail from the Persian Gulf
region, and we concluded the Postal Service did a commendable job performing its
responsibilities regarding military mail. However, during our visits to mail processing
facilities, we observed a backlog of undelivered mail the military had returned from the
Persian Gulf to the Postal Service for reprocessing. The Postal Service incurred
$316,012 in additional labor costs to reprocess this mail. We recommended
management obtain reimbursement from the Department of Defense for these costs.

Management agreed with the intent of our recommendation to seek reimbursement from
the Department of Defense for these labor costs. However, Postal Service elected not
to pursue such reimbursement because (1) they did not want to jeopardize the excellent
and cooperative working relationship with the Department of Defense, and (2) they
believe the Department of Defense has taken the necessary corrective measures to
preclude a recurrence of a similar episode. Given the rationale provided, we consider
the management’s comments responsive to our recommendation. Management’s
comments and our evaluation of these comments are included in the report.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
Network Operations - Processing, at (703) 248-2100 or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    James P. Wade
    Michael J. Nappi
    Frank M. Panico
    Susan M. Duchek
Military Mail Issues During                                         NO-AR-04-003
 Operation Iraqi Freedom


                              TABLE OF CONTENTS

 Executive Summary                                                        i

 Part I

 Introduction                                                             1

     Background                                                           1
     Objectives, Scope, and Methodology                                   2
     Prior Audit Coverage                                                 2

 Part II

 Audit Results                                                            3

     Military Mail Allegedly Delayed by the Postal Service                3

     Postal Service Efforts Commendable                                   4

     Backlogged Returned Mail                                             5
     Recommendation                                                       9
     Management’s Comments                                                9
     Evaluation of Management’s Comments                                 10

 Appendix A. Estimated Workhours and Labor Costs Incurred                11

 Appendix B. Sample Letter of Explanation From the Postal Service        12

 Appendix C. Management’s Comments                                       13
Military Mail Issues During                                                                           NO-AR-04-003
 Operation Iraqi Freedom


                                       EXECUTIVE SUMMARY
    Introduction                    This report presents the results of our review of an
                                    allegation of delays in military mail1 during the recent
                                    military operations in the Persian Gulf region. We received
                                    this allegation from an Army Inspector General official.
                                    Military mail is managed jointly by the Postal Service and
                                    the Department of Defense.

                                    The objectives of this audit were to (1) determine whether
                                    the Postal Service delayed military mail and assigned a
                                    lower priority to military “free” mail than other types of mail,2
                                    and (2) assess the Postal Service’s processing of military
                                    mail from Operation Iraqi Freedom.

    Results in Brief                The audit revealed the Postal Service did not delay or
                                    assign low priority to military mail from the Persian Gulf
                                    region. We also concluded the Postal Service did a
                                    commendable job performing its responsibilities regarding
                                    military mail. However, we observed a backlog of mail at
                                    three processing centers resulting from mail that had been
                                    delivered to the Persian Gulf region and was subsequently
                                    returned to the United States to be returned to sender,
                                    forwarded as addressed, or destroyed.

                                    The Postal Service accepted this mail even though the
                                    Department of Defense did not always provide forwarding
                                    addresses as required. Postal Service officials advised us
                                    they accepted and reprocessed the mail because they
                                    were aware of the conditions in the combat area and the
                                    difficulties faced by the military in delivering this mail.
                                    As a result, the Postal Service accepted large amounts of
                                    returned undeliverable-as-addressed mail3 that created
                                    (1) the need for additional labor hours of 9,972 or
                                    $316,012 in labor costs, and (2) the risk of customer
                                    dissatisfaction.

1
  Military mail is “domestic and international mail which bears a military address or return address and that at some
stage in its transmission is in the possession of the Department of Defense.”
2
  We received an allegation that military mail from the troops supporting Operation Iraqi Freedom was being delayed
because the Postal Service may be assigning a lower priority to “free” (no postage necessary) military mail originating
in Iraq. “Free” mail for Iraq was declared by the Office of Secretary of Defense to allow members of the armed
services to send some types of mail without postage attached. The Department of Defense reimburses the Postal
Service for this postage.
3
  Undeliverable-as-addressed is defined as “Mail that the USPS cannot deliver as addressed and must forward to the
addressee, return to the sender, or send to a mail recovery center (depending on the treatment authorized for mail
class).”




                                                           i
Military Mail Issues During                                                   NO-AR-04-003
 Operation Iraqi Freedom




 Summary of                   We recommended management obtain reimbursement
 Recommendations              from the Department of Defense for additional labor
                              costs of $316,012 associated with the processing of
                              undeliverable-as-addressed military mail.

 Summary of                   Management agreed with the intent of our recommendation
 Management’s                 to seek reimbursement from the Department of Defense for
 Comments                     these labor costs. However, they stated they do not intend
                              to pursue such reimbursement because they believe the
                              costs associated with this one-time occurrence should not
                              be a reason to jeopardize the excellent and cooperative
                              working relationship between the two organizations. In
                              addition, the Postal Service reported that the military has
                              taken steps to mitigate these problems in the future.
                              Management’s comments, in their entirety, are included in
                              Appendix C of this report.

 Overall Evaluation of        Given the rationale provided, we consider management’s
 Management’s                 comments responsive to our recommendation.
 Comments




                                              ii
Military Mail Issues During                                                                         NO-AR-04-003
 Operation Iraqi Freedom


                                              INTRODUCTION
    Background                       The Postal Service and the Department of Defense work
                                     jointly to ensure quality mail service to the military. Joint
                                     Postal Service operations are governed by “an agreement
                                     between the Postal Service and the Department of Defense
                                     details the responsibilities of each organization to provide
                                     coordinated and efficient postal services.”4 New York City
                                     and San Francisco Area Postal Service facilities serve as
                                     the primary international gateways for military mail traveling
                                     to military locations in the Persian Gulf region.

                                     United States troop build-up leading to Operation Iraqi
                                     Freedom increased dramatically in the Persian Gulf region
                                     from approximately 60,000 in January 2003 to 225,000 in
                                     February 2003. Troop strength increased to approximately
                                     250,000 by mid-March 2003. Between January and
                                     July 2003, the Postal Service and the military together
                                     transported over 40.6 million pounds of military mail to and
                                     from the Persian Gulf region, according to the chief of
                                     operations, Military Postal Service Agency. Below is a chart
                                     that shows the normal flow of military mail and identifies
                                     Postal Service and military responsibilities.

                                                           Military Mail Process

                                                    Mail for troops processed at Postal
                                                    Service International Service Centers



                                      Sender (Customer)
                                                                                   Mail received at military
                                                                                   staging area in Kuwait for
                                                                                   delivery to troops



                                           Troops receive mail in the Persian Gulf (including Iraq)



                                       Key:
                                                    Normal Mail Flow
                                                    Pink = Postal Responsibility

                                                    Blue = Military Responsibility



4
    Postal Agreement with the Department of Defense, (Publication 38), February 1980.



                                                          1
Military Mail Issues During                                                        NO-AR-04-003
 Operation Iraqi Freedom




 Objectives, Scope,           The objectives of this audit were to (1) determine whether
 and Methodology              the Postal Service delayed military mail and assigned a
                              lower priority to “free” military mail than other types of mail,
                              and (2) assess the Postal Service’s processing of military
                              mail from Operation Iraqi Freedom.

                              To meet our objectives, we interviewed Military Postal
                              Service Agency officials in Alexandria, Virginia, and Postal
                              Service managers and military officials at the New York and
                              San Francisco International Service Centers. We also
                              visited the New Jersey International and Bulk Mail Center
                              and the Postal Service’s contract air operations at the
                              Newark International Airport. In addition, we reviewed
                              applicable Postal Service regulations, policies, procedures,
                              and documentation related to military mail.

                              We conducted this audit from June through
                              December 2003, in accordance with generally accepted
                              government auditing standards, and included such tests of
                              internal controls as were considered necessary under the
                              circumstances. We discussed our conclusions and
                              observations with appropriate management officials and
                              included their comments, where appropriate.

 Prior Audit Coverage         We did not identify any prior audits or reviews related to the
                              objectives of this audit.




                                                2
Military Mail Issues During                                                     NO-AR-04-003
 Operation Iraqi Freedom


                                     AUDIT RESULTS
 Military Mail                In June 2003, we received an allegation from an Army
 Allegedly Delayed by         Inspector General official that the Postal Service was
 the Postal Service           moving mail slowly from the Persian Gulf region to the
                              United States. We also received allegations the Postal
                              Service was giving a lower priority to military mail, which
                              was hand-stamped “free” mail coming from the Persian Gulf
                              region to the United States.

                              Our review disclosed no evidence the Postal Service
                              delayed military mail related to Operation Iraqi Freedom or
                              the Postal Service was assigning a lower priority to military
                              mail than other types of mail. Our conclusions were based
                              on an examination of mail condition reports, as well as
                              interviews and observations at several Postal Service
                              processing facilities. Consequently, we are not making any
                              recommendations in this area.




                                               3
Military Mail Issues During                                                       NO-AR-04-003
 Operation Iraqi Freedom




 Postal Service Efforts The Postal Service performed a commendable job in
 Commendable            processing and supporting the movement of military mail
                        based on our observations and interviews with military and
                        Postal Service officials. Notably, an official at the Military
                        Postal Service Agency told us during the Iraq conflict the
                        Postal Service went over and above what is necessary in
                        assisting the military, including:

                              •   Round-the-clock monitoring and dispatching of mail to
                                  the Persian Gulf region during Operation Iraqi Freedom
                                  (as depicted below).

                              •   Sortation of mail to the Persian Gulf region to enable
                                  bypassing of congested areas of operation to expedite
                                  the movement of mail to the troops.




                                  Round-the-Clock Monitoring of Contract Airlines Kalitta
                                  Boeing 747 Being Loaded with Military Mail, June 2003.




                                              4
Military Mail Issues During                                                                          NO-AR-04-003
 Operation Iraqi Freedom




    Backlogged Returned During our visits to mail processing facilities in late
    Mail                June 2003, we observed a large volume of backlogged
                        returned mail.5 (See the flow chart below.)

                                                 Backlogged Returned Military Mail
                                                        Mail for troops processed at Postal
                                                        Service International Service Centers
                                                        Backlogged returned mail




                                     Sender (Customer)
                                                                                  Mail received at military
                                                                                  staging area in Kuwait for
                                     Mail is:                                     delivery to troops
                                     • Forwarded to recipient
                                     • Returned to sender                         Some mail is undelivered
                                     • Disposed as waste

                                                Troops receive mail in the Persian Gulf (including Iraq)


                                     Key:
                                                   Normal mail flow             Pink = Postal Responsibility


                                                                                Blue = Military Responsibility
                                          Undelivered returned mail




                                   During our site visits in June and July 2003, we counted
                                   14 containers at the New Jersey International and Bulk Mail
                                   Center (depicted on page 6), approximately 62 containers at
                                   the New York International Service Center (depicted on the
                                   top of page 7), and 3 containers at the San Francisco
                                   International Service Center.6 We also observed that much
                                   of this mail was unwrapped and lacked any addressing
                                   information (also depicted in the pictures on the bottom of
                                   page 7 and the top of page 8).




5
  Backlogged returned mail was comprised of thousands of letters and packages delayed oversees and ultimately not
delivered to the final recipients – the service men and women. This mail was subsequently returned in bulk to the
Postal Service creating a backlog at the processing centers.
6
  Postal Service managers at the San Francisco International Service Center told us they had eliminated most of their
backlog before our arrival in July 2003.



                                                            5
Military Mail Issues During                                                       NO-AR-04-003
 Operation Iraqi Freedom



                              Documentation was not available from the Postal Service
                              indicating the number of pounds of mail the military could
                              not deliver and was returned to the Postal Service for
                              further processing. However, the Military Postal Service
                              Agency provided documentation indicating that
                              from January through August 2003 the Postal Service
                              received over 6 million pounds of mail from Operation
                              Iraqi Freedom. Postal Service officials also provided
                              documentation showing additional labor costs incurred
                              from January through August 2003 to reprocess
                              undeliverable-as-addressed mail.




                                     Military Mail Awaits Repackaging at the New Jersey
                                        International and Bulk Mail Center, June 2003.




                                               6
Military Mail Issues During                                                  NO-AR-04-003
 Operation Iraqi Freedom




                              Backlogged Returned Mail at the New York International
                                           Service Center, June 2003.




                               Backlogged Returned Mail Needing to be Repackaged
                                at the San Francisco International Service Center,
                                         Daly City, California, July 2003.




                                          7
Military Mail Issues During                                                        NO-AR-04-003
 Operation Iraqi Freedom




                                  Backlogged Returned Mail Undeliverable-as-Addressed at
                                the New Jersey International and Bulk Mail Center, June 2003.

                              The reasons for the backlogged returned mail that needed
                              to be reprocessed by the Postal Service included:

                               •   The rapid military build-up and subsequent execution of
                                   Operation Iraqi Freedom that overwhelmed military
                                   Postal Service operations in the Persian Gulf region.

                               •   The quick end to major hostilities in Iraq resulting in the
                                   rapid return of many military personnel to bases in the
                                   United States, often before their mail could catch up
                                   with them.

                               •   The decision by military officials to not restrict mail
                                   going to the Persian Gulf region to only Priority and/or
                                   First-Class Mail.

                               •   The decision by military officials to return undelivered
                                   mail to the Postal Service without the usual military
                                   directory service.

                              The Postal Service accepted this mail even though the
                              Department of Defense did not always provide forwarding
                              addresses as required. Postal Service officials advised they


                                               8
Military Mail Issues During                                                                         NO-AR-04-003
 Operation Iraqi Freedom


                                   accepted and reprocessed the mail because they were
                                   aware of the conditions in the combat area7 and the
                                   difficulties faced by the military in delivering this mail.
                                   Nevertheless, Publication 38, Section IX, Mail Fowarding,
                                   states that upon the return of mail to the Postal Service:
                                   “the Department of Defense. . . agrees to provide directory
                                   service for undeliverable-as-addressed military mail and
                                   endorse each piece to show a forwarding address or reason
                                   for non-delivery.”

                                   As a result of accepting this mail, the Postal Service incurred
                                   an additional 9,972 workhours, or approximately $316,012 in
                                   labor costs. Publication 38, Section V, Claims, provides that
                                   the Department of Defense agrees to “assume financial
                                   liability, under military claims procedures, for loss, damage,
                                   theft, wrong delivery . . . . ” (See Appendix A.)

                                   In addition, the Postal Service was exposed to the risk of
                                   customer dissatisfaction from mailpieces returning from the
                                   Persian Gulf region. As part of our review, we suggested
                                   Postal Service officials at the New York and New Jersey
                                   facilities include a letter of explanation with each returned
                                   mail package to minimize the risk of customer
                                   dissatisfaction. At the time of our visit, Postal Service
                                   management at the San Francisco International Service
                                   Center already included a standard letter in all reprocessed
                                   packages. (See Appendix B for a sample copy of this letter.)

    Recommendation                 We recommend the vice president, Network Operations
                                   Management:

                                   1. Obtain reimbursement from the Department of Defense
                                      for additional labor costs of $316,012 associated with the
                                      reprocessing of undeliverable-as-addressed military mail.

    Management’s                   Management agreed with the intent of our recommendation
    Comments                       to seek reimbursement from the Department of Defense for
                                   these labor costs. However, they stated they do not intend
                                   to pursue such reimbursement because responsibilities are
                                   shared by both organizations for providing postal services to
                                   members of the Armed Services worldwide. Postal


7
 Mail was stored in large metal transportation containers in Kuwait and exposed to extreme desert heat, at times in
excess of 120 degrees. As a result, the heat weakened the adhesives causing damage to the mail.



                                                          9
Military Mail Issues During                                                     NO-AR-04-003
 Operation Iraqi Freedom



                              Service management stated the costs associated with this
                              one-time occurrence should not be a reason to jeopardize
                              the excellent and cooperative working relationship between
                              the two organizations. Additionally, they believe the Military
                              Postal Service had taken the necessary corrective measures
                              to preclude a recurrence of a similar episode.

 Evaluation of                Based on the rationale provided, we consider management’s
 Management’s                 comments responsive to our recommendation.
 Comments




                                               10
  Military Mail Issues During                                                                                                        NO-AR-04-003
   Operation Iraqi Freedom


                   APPENDIX A. ESTIMATED WORKHOURS AND LABOR COSTS INCURRED
                                                             FULL-TIME
        SITE                     FULL-TIME                   REGULAR                                                 CASUAL
   (International                REGULAR                     OVERTIME                    CASUAL                     OVERTIME
Service Centers and             WORKHOURS                  WORKHOURS AT                 WORKHOURS                  WORKHOURS
 Bulk Mail Centers)              AT $36.98                     $29.99                    AT $12.90                  AT $16.26              LABOR COSTS

San Francisco                           60                            0                       1,731                       121                   $ 26,516
International Service
Center
San Francisco Bulk                     263                            0                          0                             0                $ 9,726
Mail Center
New York                              6,332                        1,225                         0                             0               $ 270,895
International Service
Center
New Jersey                             240                            0                          0                             0                $   8,875
International and
Bulk Mail Center
Totals                                6,895                        1,225                      1,731                       121                   $316,012 *


  SOURCE
  Workhours expended were estimated and reported to us by Postal Service managers at the San Francisco and New York International Service Centers, the New
  Jersey International and Bulk Mail Center, and the San Francisco Bulk Mail Center. We did not independently validate the workhours. Although the military was
  not exclusively responsible for the necessary repackaging, Military Postal Service Agency officials advised us they were responsible for the majority of the required
  repackaging.

  ASSUMPTIONS
  Labor rates were estimated based on the Postal Service 2003 published rates for:
  •   A full-time regular PS-05 clerk rate of $36.98, and a casual clerk rate of $12.90 – (both fully loaded with overhead).
  •   An overtime rate for full-time regular employees of $29.99 [$19.99 (labor costs without overhead) x 1.5 (time and a half for overtime), and an overtime rate for
      casual employees of $16.26 [$10.84 x 1.5].
  *Questioned Costs.



                                                                                   11
Military Mail Issues During                        NO-AR-04-003
 Operation Iraqi Freedom


      APPENDIX B. SAMPLE LETTER OF EXPLANATION FROM THE
                       POSTAL SERVICE




                              12
Military Mail Issues During                             NO-AR-04-003
 Operation Iraqi Freedom


                    APPENDIX C. MANAGEMENT’S COMMENTS




                                   13
Military Mail Issues During        NO-AR-04-003
 Operation Iraqi Freedom




                              14
